Table of Contents
Part I. Management’s Discussion and Analysis

    Message from the Secretary of Defense                         I-1
    DoD Mission and Organization Structure                        I-3
    Performance Highlights                                        I-6
    Looking to the Future                                         I-7
    Financial Statements Highlights                               I-9
    Financial Management Issues                                   I-11
    Systems, Controls, and Compliance with Laws and Regulations   I-13
    Management Controls (Integrity Act)                           I-15

Part II. Performance

    Program Performance                                           II-1
    President’s Management Agenda                                 II-18
    Financial Management Improvement Plan                         II-23

Part III. Financial Statements

    Message from the Chief Financial Officer                      III-1
    Financial Statements
        Principal Statements                                      III-3
        Footnotes                                                 III-13
        Consolidating and Combining Statements                    III-131
        Required Supplementary Stewardship Information            III-159
        Required Supplementary Information                        III-173
        Other Accompanying Information                            III-195
    Independent Auditors’ Report                                  III-225
    Inspector General Summary of Management Challenges            III-233

Appendices
   A. Acronyms                                                    A-1
   B. Internet Links                                              B-1




DoD Performance and Accountability Report
